TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2011



                                      September 20, 2011

                              Reference Number: 2011-20-116




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 20, 2011


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Treasury Inspector General for Tax Administration – Federal
                              Information Security Management Act Report for Fiscal Year 2011
                              (Audit # 201120006)

 We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
 Information Security Management Act (FISMA)1 report for the Fiscal Year 2011 evaluation
 period.2 The FISMA requires the Offices of Inspector General to perform an annual independent
 evaluation of each Federal agency’s information security program and practices. This report
 reflects our independent evaluation of the Internal Revenue Service’s (IRS) information security
 program for the period under review.
 We based our evaluation of the IRS on the Department of Homeland Security’s (DHS) Fiscal
 Year 2011 Inspector General FISMA Reporting guidelines, issued June 1, 2011. During the
 Fiscal Year 2011 FISMA evaluation period, we conducted 14 audits, as shown in Appendix I, to
 evaluate the adequacy of information security in the IRS. We considered the results of these
 audits in our evaluation. In addition, we evaluated a representative sample of 10 major IRS
 information systems for our FISMA work. For each system in the sample, we assessed the
 quality of the security assessment and authorization process, the annual testing of controls for
 continuous monitoring, the testing of information technology contingency plans, and the quality
 of the plan of action and milestones process. We also conducted tests to evaluate processes over
 configuration management, incident response and reporting, security training, remote access


 1
  44 U.S.C. Sections 3541–3549.
 2
  The FISMA evaluation period for the Department of the Treasury is July 1, 2010, through June 30, 2011. All
 subsequent references to 2011 refer to the FISMA evaluation period.
                                 Treasury Inspector General for Tax
                             Administration – Federal Information Security
                             Management Act Report for Fiscal Year 2011


management, identity and access management, contractor systems, and security architecture and
capital planning. Major contributors to this report are listed in Appendix II.
Based on our Fiscal Year 2011 FISMA evaluation, we determined that the IRS’s information
security program is in place and generally compliant with the FISMA legislation, but
improvements are needed. We determined that the following program areas met the level of
performance specified by the DHS’s 2011 FISMA checklist.
   •   Risk management.
   •   Incident response and reporting.
   •   Remote access management.
   •   Continuous monitoring management.
   •   Contingency planning.
   •   Contractor systems.
   •   Security capital planning.
We determined the following program areas were not fully effective as a result of the conditions
identified that need improvement.
   •   Configuration management.
   •   Security training.
   •   Plans of action and milestones.
   •   Identity and access management.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




                                                                                                2
                                         Treasury Inspector General for Tax
                                     Administration – Federal Information Security
                                     Management Act Report for Fiscal Year 2011




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2

Appendices
          Appendix I – Treasury Inspector General for Tax Administration
          Information Technology Security Reports Issued During the
          Fiscal Year 2011 Evaluation Period ............................................................. Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
              Treasury Inspector General for Tax
          Administration – Federal Information Security
          Management Act Report for Fiscal Year 2011




                 Abbreviations

DHS        Department of Homeland Security
FCD1       Federal Continuity Directive 1
FDCC       Federal Desktop Core Configuration
FISMA      Federal Information System Management Act
GAO        Government Accountability Office
IRS        Internal Revenue Service
NIST       National Institute of Standards and Technology
OIG        Office of the Inspector General
OMB        Office of Management and Budget
POA&M      Plan of Action and Milestones
TIGTA      Treasury Inspector General for Tax Administration
US-CERT    United States Computer Emergency Response Team
USGCB      United States Government Configuration Baseline
                                        Treasury Inspector General for Tax
                                    Administration – Federal Information Security
                                    Management Act Report for Fiscal Year 2011




                                            Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. The IRS also relies extensively on computerized
systems to support its responsibilities in collecting taxes, processing tax returns, and enforcing
the Federal tax laws. As custodians of taxpayer information, the IRS has an obligation to protect
the confidentiality of this sensitive information against unauthorized access or loss. Otherwise,
taxpayers could be exposed to invasion of privacy and financial loss or damage from identity
theft or other financial crimes.
The Federal Information Security Management Act (FISMA)1 was enacted to strengthen the
security of information and systems within Federal agencies. Under the FISMA, agency heads
are responsible for providing information security protections commensurate with the risk and
magnitude of harm resulting from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Agency heads are also
responsible for complying with the requirements of the FISMA, related Office of Management
and Budget (OMB) policies, and National Institute of Standards and Technology (NIST)
procedures, standards, and guidelines.
As part of this legislation, each Federal Government agency is required to report annually to the
OMB on the adequacy and effectiveness of its information security program and practices and
compliance with the FISMA. In addition, the FISMA requires the agencies to have an annual
independent evaluation of their information security programs and practices performed by the
agency Inspector General or an independent external auditor as determined by the Inspector
General. The OMB uses the information from the agencies and independent evaluations in its
FISMA oversight capacity to assess agency-specific and Federal Government-wide security
performance, develop its annual security report to Congress, and assist in improving and
maintaining adequate agency security performance. For the Fiscal Year 2011 FISMA
evaluation, the Department of Homeland Security (DHS) issued the information security
performance measures by which each agency was evaluated.
In compliance with the FISMA requirements, the Treasury Inspector General for Tax
Administration (TIGTA) performs the annual independent evaluation of the information security
program and practices of the IRS. Attached is the TIGTA’s Fiscal Year 2011 FISMA report.
The report was forwarded to the Treasury Inspector General for consolidation into a report issued
to the Department of the Treasury Chief Information Officer.



1
    44 U.S.C. Sections 3541–3549.
                                                                                           Page 1
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011




                                       Results of Review

The DHS issued a checklist2 for use by Offices of Inspectors General to assess the level of
performance achieved by agencies in the specified program areas during the Fiscal Year 2011
FISMA evaluation period.3 This report presents our completed DHS checklist for the IRS.
We determined the level of performance (a, b, or c) that the IRS had achieved for each of the
program areas listed. As defined by the DHS, agencies achieve an “a” status for the program
area if they have met all the attributes specified by DHS in the “a” section. Agencies achieve a
“b” status if they have established the program area, but significant improvements were needed
in regards to certain conditions specified by the DHS. The DHS listed the conditions in the “b”
section that, if in need of significant improvement, would prevent agencies from achieving an
“a” status. Agencies achieve a “c” status if they have not yet established the program area.
We checked IRS program areas as an “a” status where we determined that the IRS met all the
program attributes specified by the DHS. We checked IRS program areas as a “b” status where
we determined that one or more conditions listed by the DHS needed significant improvement at
the IRS. Due to time and resource constraints, we were unable to test all conditions listed by the
DHS in the “b” sections. Therefore, it is possible that more of these conditions exist at the IRS
than those we have checked. We did not check any program areas as a “c” status because the
IRS has established all program areas listed by the DHS.
For our FISMA work, we evaluated a representative sample of 10 major IRS information
systems, which included 9 IRS systems and 1 contractor-managed system. Of these 10 systems,
1 system had a Federal Information Processing Standards 199 impact level of high, and
9 systems were of a moderate impact level. All 10 systems had a current security assessment and
authorization, had security controls tested within the past year, and had contingency plans tested
in accordance with policy. Of the 10 IRS systems the TIGTA selected for the Fiscal Year 2011
FISMA evaluation, 4 systems completed the security assessment and authorization process, and
6 systems completed annual testing of selected controls during the Fiscal Year 2011 FISMA
evaluation period.




2
  Due to the nature of the list that follows, many abbreviations are used exactly as presented in the original document
reproduced and are not defined therein. However, please see the Abbreviations page after the Table of Contents of
this report for a list of abbreviations that we have defined.
3
  The FISMA evaluation period for the Department of the Treasury is July 1, 2010, through June 30, 2011. All
subsequent references to 2011 refer to the FISMA evaluation period.
                                                                                                              Page 2
                               Treasury Inspector General for Tax
                           Administration – Federal Information Security
                           Management Act Report for Fiscal Year 2011



                          RESPONSES TO FISCAL YEAR 2011
                     DHS QUESTIONS FOR INSPECTOR GENERALS
1: Risk Management
Status of Risk         x   1.a. The Agency has established and is maintaining a risk management program
Management Program         that is consistent with FISMA requirements, OMB policy, and applicable NIST
[check one]                guidelines. Although improvement opportunities may have been identified by the
                           Office of the Inspector General (OIG), the program includes the following
                           attributes:
                               1.a(1). Documented and centrally accessible policies and procedures for risk
                               management, including descriptions of the roles and responsibilities of
                               participants in this process.
                               1.a(2). Addresses risk from an organization perspective with the development
                               of a comprehensive governance structure and organization-wide risk
                               management strategy as described in NIST 800-37, Rev. 1.
                               1.a(3). Addresses risk from a mission and business process perspective and is
                               guided by the risk decisions at the organizational perspective, as described in
                               NIST 800-37, Rev. 1.
                               1.a(4). Addresses risk from an information system perspective and is guided
                               by the risk decisions at the organizational perspective and the mission and
                               business perspective, as described in NIST 800-37, Rev. 1.
                               1.a(5). Categorizes information systems in accordance with government
                               policies.
                               1.a(6). Selects an appropriately tailored set of baseline security controls.
                               1.a(7). Implements the tailored set of baseline security controls and describes
                               how the controls are employed within the information system and its
                               environment of operation.
                               1.a(8). Assesses the security controls using appropriate assessment procedures
                               to determine the extent to which the controls are implemented correctly,
                               operating as intended, and producing the desired outcome with respect to
                               meeting the security requirements for the system.
                               1.a(9). Authorizes information system operation based on a determination of
                               the risk to organizational operations and assets, individuals, other
                               organizations, and the Nation resulting from the operation of the information
                               system and the decision that this risk is acceptable.
                               1.a(10). Ensures information security controls are monitored on an ongoing
                               basis including assessing control effectiveness.
                               1.a(11). Information system specific risks (tactical), mission/business specific
                               risks, and organizational level (strategic) risks are communicated to
                               appropriate levels of the organization.
                               1.a(12). Senior officials are briefed on threat activity on a regular basis by


                                                                                                         Page 3
                                Treasury Inspector General for Tax
                            Administration – Federal Information Security
                            Management Act Report for Fiscal Year 2011


                                appropriate personnel. (e.g., Chief Information Security Officer (CISO)).
                                1.a(13). Prescribes the active involvement of information system owners and
                                common control providers, chief information officers, senior information
                                security officers, authorizing officials, and other roles as applicable in the
                                ongoing management of information system-related security risks.
                                 1.a(14). Security authorization package contains system security plan, security
                                 assessment report, and Plans of Action and Milestones (POA&M) in
                                 accordance with government policies.
                            1.b. The Agency has established and is maintaining a risk management program.
                            However, the Agency needs to make significant improvements as noted below.
If 1.b. is checked above,       1.b(1). Risk management policy is not fully developed.
check areas that need
significant improvement:        1.b(2). Risk management procedures are not fully developed, sufficiently
                                detailed (SP 800-37, SP 800-39, SP 800-53).
                                1.b(3). Risk management procedures are not consistently implemented in
                                accordance with government policies (SP 800-37, SP 800-39, SP 800-53).
                                1.b(4). A comprehensive governance structure and Agency-wide risk
                                management strategy has not been fully developed in accordance with
                                government policies (SP 800-37, SP 800-39, SP 800-53).
                                1.b(5). Risks from a mission and business process perspective are not
                                addressed (SP 800-37, SP 800-39, SP 800-53).
                                1.b(6). Information systems are not properly categorized (FIPS 199/
                                SP 800-60).
                                1.b(7). Appropriately tailored baseline security controls are not applied to
                                information systems in accordance with government policies (FIPS 200/
                                SP 800-53).
                                1.b(8). Risk assessments are not conducted in accordance with government
                                policies (SP 800-30).
                                1.b(9). Security control baselines are not appropriately tailored to individual
                                information systems in accordance with government policies (SP 800-53).
                                1.b(10). The communication of information system specific risks,
                                mission/business specific risks, and organizational level (strategic) risks to
                                appropriate levels of the organization is not in accordance with government
                                policies.
                                1.b(11). The process to assess security control effectiveness is not in
                                accordance with government policies (SP800-53A).
                                1.b(12). The process to determine risk to agency operations, agency assets, or
                                individuals, or to authorize information systems to operate is not in
                                accordance with government policies (SP 800-37).
                                1.b(13). The process to continuously monitor changes to information systems
                                that may necessitate reassessment of control effectiveness is not in accordance
                                with government policies (SP 800-37).
                                1.b(14). Security plan is not in accordance with government policies
                                (SP 800-18, SP 800-37).
                                1.b(15). Security assessment report is not in accordance with government
                                policies (SP 800-53A, SP 800-37).
                                1.b(16). Accreditation boundaries for agency information systems are not
                                defined in accordance with government policies.

                                                                                                       Page 4
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011



                                    1.b(17). Other
                                    1.b(17ex). Explanation for Other
                                1.c. The Agency has not established a risk management program.
Comments:

2: Configuration Management
Status of Configuration         2.a. The Agency has established and is maintaining a security configuration
Management Program              management program that is consistent with FISMA requirements, OMB policy,
[check one]                     and applicable NIST guidelines. Although improvement opportunities may have
                                been identified by the OIG, the program includes the following attributes:
                                    2.a(1). Documented policies and procedures for configuration management.
                                    2.a(2). Standard baseline configurations defined.
                                    2.a(3). Assessing for compliance with baseline configurations.
                                    2.a(4). Process for timely, as specified in agency policy or standards,
                                    remediation of scan result deviations.
                                    2.a(5). For Windows-based components, Federal Desktop Core Configuration
                                    (FDCC)/United States Government Configuration Baseline (USGCB) secure
                                    configuration settings fully implemented and any deviations from
                                    FDCC/USGCB baseline settings fully documented.
                                    2.a(6). Documented proposed or actual changes to hardware and software
                                    configurations.
                                     2.a(7). Process for timely and secure installation of software patches.
                                2.b. The Agency has established and is maintaining a security configuration
                            x   management program. However, the Agency needs to make significant
                                improvements as noted below.
If 2.b. is checked above,            2.b(1). Configuration management policy is not fully developed
check areas that need                (NIST 800-53: CM-1)
significant improvement:             2.b(2). Configuration management procedures are not fully developed
                                     (NIST 800-53: CM-1).
                            x        2.b(3). Configuration management procedures are not consistently
                                     implemented (NIST 800-53: CM-1).
                                     2.b(4). Standard baseline configurations are not identified for software
                                     components (NIST 800-53: CM-2).
                                     2.b(5). Standard baseline configurations are not identified for all hardware
                                     components (NIST 800-53: CM-2).
                            x        2.b(6). Standard baseline configurations are not fully implemented
                                     (NIST 800-53: CM-2).
                                     2.b(7). FDCC/USGCB is not fully implemented (OMB) and/or all deviations
                                     are not fully documented (NIST 800-53: CM-6).
                            x        2.b(8). Software assessing (scanning) capabilities are not fully implemented
                                     (NIST 800-53: RA-5, SI-2).


                                                                                                              Page 5
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011


                                      2.b(9). Configuration-related vulnerabilities, including scan findings, have not
                             x        been remediated in a timely manner, as specified in agency policy or
                                      standards (NIST 800-53: CM-4, CM-6, RA-5, SI-2).
                             x        2.b(10). Patch management process is not fully developed, as specified in
                                      agency policy or standards (NIST 800-53: CM-3, SI-2).
                                      2.b(11). Other

                                      2.b(11ex). Explanation for Other
                                   2.c. The Agency has not established a security configuration management
                                   program.
Comments: In March 2011, the Government Accountability Office (GAO) reported4 that the IRS had newly
identified and unresolved weaknesses related to access controls, configuration management, and segregation of
duties that continue to jeopardize the confidentiality, integrity, and availability of the financial and sensitive
taxpayer information processed by the IRS’s systems. Considered collectively, these weaknesses were the basis for
GAO’s determination that the IRS had a material weakness in internal control over its financial reporting related to
information security in Fiscal Year 2010. In May 2011, the TIGTA reported5 that nonmainframe databases
containing taxpayer data were not always configured in a secure manner and were running out-of-date software that
no longer received security patches and other vendor support. In addition, the TIGTA reported that the IRS had not
fully implemented its plans to complete vulnerability scans of databases within its enterprise. Further, the IRS has
been unable to establish an enterprise-wide process for timely remediation of weaknesses reported by vulnerabilities
scans because of the limited information it gets from the scan results. To correct configuration management
deficiencies, the IRS is in the process of implementing an Enterprise Configuration Management System, with
planning dates through Fiscal Year 2014, that will provide oversight and enforcement of configuration and change
management processes.

3: Incident Response and Reporting
Status of Incident           x   3.a. The Agency has established and is maintaining an incident response and
Response & Reporting             reporting program that is consistent with FISMA requirements, OMB policy, and
Program [check one]              applicable NIST guidelines. Although improvement opportunities may have been
                                 identified by the OIG, the program includes the following attributes:
                                      3.a(1). Documented policies and procedures for detecting, responding to, and
                                      reporting incidents.
                                      3.a(2). Comprehensive analysis, validation, and documentation of incidents.
                                      3.a(3). When applicable, reports to United States Computer Emergency
                                      Response Team (US-CERT) within established timeframes.
                                      3.a(4). When applicable, reports to law enforcement within established
                                      timeframes.
                                      3.a(5). Responds to and resolves incidents in a timely manner, as specified in



4
  INFORMATION SECURITY: IRS Needs to Enhance Internal Control over Financial Reporting and Taxpayer
Data (GAO-11-308, dated March 2011).
5
  Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are Protected (Reference
Number 2011-20-044, dated May 4, 2011).
                                                                                                              Page 6
                                Treasury Inspector General for Tax
                            Administration – Federal Information Security
                            Management Act Report for Fiscal Year 2011


                                agency policy or standards, to minimize further damage.
                                3.a(6). Is capable of tracking and managing risks in a virtual/cloud
                                environment, if applicable.
                                3.a(7). Is capable of correlating incidents.

                            3.b. The Agency has established and is maintaining an incident response and
                            reporting program. However, the Agency needs to make significant improvements
                            as noted below.
If 3.b. is checked above,        3.b(1). Incident response and reporting policy is not fully developed
check areas that need            (NIST 800-53: IR-1).
significant improvement:         3.b(2). Incident response and reporting procedures are not fully developed or
                                 sufficiently detailed (NIST 800-53: IR-1).
                                 3.b(3). Incident response and reporting procedures are not consistently
                                 implemented in accordance with government policies (NIST 800-61, Rev 1).
                                 3.b(4). Incidents were not identified in a timely manner, as specified in agency
                                 policy or standards (NIST 800-53, 800-61 and
                                 OMB M-07-16, M-06-19).
                                 3.b(5). Incidents were not reported to the US-CERT as required
                                 (NIST 800-53, 800-61 and OMB M-07-16, M-06-19).
                                 3.b(6). Incidents were not reported to law enforcement as required
                                 (SP 800-86).
                                 3.b(7). Incidents were not resolved in a timely manner (NIST 800-53, 800-61
                                 and OMB M-07-16, M-06-19).
                                 3.b(8). Incidents were not resolved to minimize further damage
                                 (NIST 800-53, 800-61 and OMB M-07-16, M-06-19).
                                 3.b(9). There is insufficient incident monitoring and detection coverage in
                                 accordance with government policies (NIST 800-53, 800-61 and
                                 OMB M-07-16, M-06-19).
                                 3.b(10). The agency cannot or is not prepared to track and manage incidents in
                                 a virtual/cloud environment.
                                 3.b(11). The agency does not have the technical capability to correlate
                                 incident events.
                                3.b(12). Other

                                3.b(12ex). Explanation for Other

                            3.c. The Agency has not established an incident response and reporting program.
Comments:




                                                                                                        Page 7
                                   Treasury Inspector General for Tax
                               Administration – Federal Information Security
                               Management Act Report for Fiscal Year 2011




4: Security Training
Status of Security            4.a. The Agency has established and is maintaining a security training program that
Training Program              is consistent with FISMA requirements, OMB policy, and applicable NIST
[check one]                   guidelines. Although improvement opportunities may have been identified by the
                              OIG, the program includes the following attributes:
                                  4.a(1). Documented policies and procedures for security awareness training.
                                  4.a(2). Documented policies and procedures for specialized training for users
                                  with significant information security responsibilities.
                                  4.a(3). Security training content based on the organization and roles, as
                                  specified in agency policy or standards.
                                  4.a(4). Identification and tracking of the status of security awareness training for
                                  all personnel (including employees, contractors, and other agency users) with
                                  access privileges that require security awareness training.
                                   4.a(5). Identification and tracking of the status of specialized training for all
                                   personnel (including employees, contractors, and other agency users) with
                                   significant information security responsibilities that require specialized training.
                          x   4.b. The Agency has established and is maintaining a security training program.
                              However, the Agency needs to make significant improvements as noted below.
If 4.b. is checked                 4.b(1). Security awareness training policy is not fully developed (NIST 800-53:
above, check areas that            AT-1).
need significant                   4.b(2). Security awareness training procedures are not fully developed and
improvement:                       sufficiently detailed (NIST 800-53: AT-1).
                                   4.b(3). Security awareness training procedures are not consistently implemented
                                   in accordance with government policies (NIST 800-53: AT-2).
                                   4.b(4). Specialized security training policy is not fully developed (NIST 800-53:
                                   AT-3).
                                   4.b(5). Specialized security training procedures are not fully developed or
                                   sufficiently detailed in accordance with government policies (SP 800-50,
                                   SP 800-53).
                                   4.b(6). Training material for security awareness training does not contain
                                   appropriate content for the Agency (SP 800-50, SP 800-53).
                                   4.b(7). Identification and tracking of the status of security awareness training for
                                   personnel (including employees, contractors, and other agency users) with
                                   access privileges that require security awareness training is not adequate in
                                   accordance with government policies (SP 800-50, SP 800-53).
                                   4.b(8). Identification and tracking of the status of specialized training for
                          x        personnel (including employees, contractors, and other agency users) with
                                   significant information security responsibilities is not adequate in accordance
                                   with government policies (SP 800-50, SP 800-53).
                                   4.b(9). Training content for individuals with significant information security
                                   responsibilities is not adequate in accordance with government policies
                                   (SP 800-53, SP 800-16).
                                   4.b(10). Less than 90% of personnel (including employees, contractors, and
                                   other agency users) with access privileges completed security awareness

                                                                                                              Page 8
                                      Treasury Inspector General for Tax
                                  Administration – Federal Information Security
                                  Management Act Report for Fiscal Year 2011


                                     training in the past year.
                                     4.b(11). Less than 90% of employees, contractors, and other users with
                                     significant security responsibilities completed specialized security awareness
                                     training in the past year.
                                     4.b(12). Other

                                     4.b(12ex). Explanation for Other
                                 4.c. The Agency has not established a security training program.

Comments: In June 2011, the TIGTA reported6 that the IRS was unable to track whether employees with disaster
recovery roles attend required annual disaster recovery training. The IRS plans to develop a process for identifying
and tracking the completion of training for employees with disaster recovery roles by December 31, 2011. In
addition, the IRS did not identify or track contractors that require specialized training for the Fiscal Year 2011
FISMA year, but plans to begin collecting and tracking information on contractor completion of specialized training
for the Fiscal Year 2012 FISMA year. Contractors will self identify and report the completion of specialized
training where required and provide these data to the IRS.

5: POA&M
Status of Plan of Action          5.a. The Agency has established and is maintaining a POA&M program that is
& Milestones (POA&M)              consistent with FISMA requirements, OMB policy, and applicable NIST
Program [check one]               guidelines, and tracks and monitors known information security weaknesses.
                                  Although improvement opportunities may have been identified by the OIG, the
                                  program includes the following attributes:
                                       5.a(1). Documented policies and procedures for managing information
                                       technology security weaknesses discovered during security control
                                       assessments and requiring remediation.
                                       5.a(2). Tracks, prioritizes, and remediates weaknesses.
                                       5.a(3). Ensures remediation plans are effective for correcting weaknesses.
                                       5.a(4). Establishes and adheres to milestone remediation dates.
                                       5.a(5). Ensures resources are provided for correcting weaknesses.
                                       5.a(6). Program officials and contractors report progress on remediation to the
                                       Chief Information Officer on a regular basis, at least quarterly, and the Chief
                                       Information Officer centrally tracks, maintains, and independently
                                       reviews/validates the POA&M activities at least quarterly.
                                  5.b. The Agency has established and is maintaining a POA&M program that tracks
                             x    and remediates known information security weaknesses. However, the Agency
                                  needs to make significant improvements as noted below.
If 5.b. is checked above,              5.b(1). POA&M Policy is not fully developed.
check areas that need
significant improvement:               5.b(2). POA&M procedures are not fully developed and sufficiently detailed.


6
 Corrective Actions to Address the Disaster Recovery Material Weakness Are Being Completed (Reference
Number 2011-20-060, dated June 27, 2011).
                                                                                                              Page 9
                                   Treasury Inspector General for Tax
                               Administration – Federal Information Security
                               Management Act Report for Fiscal Year 2011


                                    5.b(3). POA&M procedures are not consistently implemented in accordance
                                    with government policies.
                                    5.b(4). POA&Ms do not include security weaknesses discovered during
                                    assessments of security controls and requiring remediation (OMB M-04-25).
                                    5.b(5). Remediation actions do not sufficiently address weaknesses in
                                    accordance with government policies (NIST SP 800-53, Rev. 3, Sect. 3.4
                                    Monitoring Security Controls).
                                    5.b(6). Source of security weaknesses are not tracked (OMB M-04-25).

                                    5.b(7). Security weaknesses are not appropriately prioritized (OMB M-04-25).

                                    5.b(8). Milestone dates are not adhered to (OMB M-04-25).
                                    5.b(9). Initial target remediation dates are frequently missed (OMB M-04-25).

                                    5.b(10). POA&Ms are not updated in a timely manner (NIST SP 800-53,
                                    Rev. 3, Control CA-5, and OMB M-04-25).
                           x        5.b(11). Costs associated with remediating weaknesses are not identified
                                    (NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25).
                                    5.b(12). Agency Chief Information Officer does not track and review
                                    POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5, and OMB M-04-25).
                                    5.b(13). Other

                                    5.b(13ex). Explanation for Other
                                5.c. The Agency has not established a POA&M program.

Comments: Our review of the 10 IRS systems selected for the Fiscal Year 2011 FISMA evaluation found that
improvements were needed to ensure costs associated with remediating weaknesses are identified.
    •   Thirteen (39 percent) of 33 closed weaknesses and 24 (31 percent) of 77 open weaknesses, maintained in
        the 10 IRS systems’ Fiscal Year 2011 POA&Ms, did not have costs associated with remediating the
        weaknesses in accordance with IRS policy.

6: Remote Access Management
Status of Remote Access    x    6.a. The Agency has established and is maintaining a remote access program that
Management Program              is consistent with FISMA requirements, OMB policy, and applicable NIST
[check one]                     guidelines. Although improvement opportunities may have been identified by the
                                OIG, the program includes the following attributes:
                                    6.a(1). Documented policies and procedures for authorizing, monitoring, and
                                    controlling all methods of remote access.
                                    6.a(2). Protects against unauthorized connections or subversion of authorized
                                    connections.
                                    6.a(3). Users are uniquely identified and authenticated for all access.
                                    6.a(4). If applicable, multi-factor authentication is required for remote access.
                                    6.a(5). Authentication mechanisms meet NIST Special Publication 800-63


                                                                                                              Page 10
                                Treasury Inspector General for Tax
                            Administration – Federal Information Security
                            Management Act Report for Fiscal Year 2011


                                guidance on remote electronic authentication, including strength mechanisms.
                                6.a(6). Defines and implements encryption requirements for information
                                transmitted across public networks.
                                6.a(7). Remote access sessions, in accordance to OMB M-07-16, are
                                timed-out after 30 minutes of inactivity after which re-authentication is
                                required.

                            6.b. The Agency has established and is maintaining a remote access program.
                            However, the Agency needs to make significant improvements as noted below.
If 6.b. is checked above,        6.b(1). Remote access policy is not fully developed (NIST 800-53: AC-1,
check areas that need            AC-17).
significant improvement:         6.b(2). Remote access procedures are not fully developed and sufficiently
                                 detailed (NIST 800-53: AC-1, AC-17).
                                 6.b(3). Remote access procedures are not consistently implemented in
                                 accordance with government policies (NIST 800-53: AC-1, AC-17).
                                 6.b(4). Telecommuting policy is not fully developed (NIST 800-46,
                                 Section 5.1).
                                 6.b(5). Telecommuting procedures are not fully developed or sufficiently
                                 detailed in accordance with government policies (NIST 800-46, Section 5.4).
                                 6.b(6). Agency cannot identify all users who require remote access
                                 (NIST 800-46, Section 4.2, Section 5.1).
                                 6.b(7). Multi-factor authentication is not properly deployed (NIST 800-46,
                                 Section 2.2, Section 3.3).
                                 6.b(8). Agency has not identified all remote devices (NIST 800-46,
                                 Section 2.1).
                                 6.b(9). Agency has not determined all remote devices and/or end user
                                 computers have been properly secured (NIST 800-46, Section 3.1 and 4.2).
                                 6.b(10). Agency does not adequately monitor remote devices when connected
                                 to the agency’s networks remotely in accordance with government policies
                                 (NIST 800-46, Section 3.2).
                                 6.b(11). Lost or stolen devices are not disabled and appropriately reported
                                 (NIST 800-46, Section 4.3, US-CERT Incident Reporting Guidelines).
                                 6.b(12). Remote access rules of behavior are not adequate in accordance with
                                 government policies (NIST 800-53, PL-4).
                                 6.b(13). Remote access user agreements are not adequate in accordance with
                                 government policies (NIST 800-46, Section 5.1, NIST 800-53, PS-6).
                                6.b(14). Other

                                6.b(14ex). Explanation for Other

                            6.c. The Agency has not established a program for providing secure remote access.
Comments:




                                                                                                       Page 11
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




7: Identity and Access Management
Status of Account and           7.a. The Agency has established and is maintaining an identity and access
Identity Management             management program that is consistent with FISMA requirements, OMB policy,
Program [check one]             and applicable NIST guidelines, and identifies users and network devices.
                                Although improvement opportunities may have been identified by the OIG, the
                                program includes the following attributes:
                                    7.a(1). Documented policies and procedures for account and identity
                                    management.
                                    7.a(2). Identifies all users, including Federal employees, contractors, and
                                    others who access Agency systems.
                                    7.a(3). Identifies when special access requirements (e.g., multi-factor
                                    authentication) are necessary.
                                    7.a(4). If multi-factor authentication is in use, it is linked to the Agency’s
                                    personal identity verification program where appropriate.
                                    7.a(5). Ensures that the users are granted access based on needs and separation
                                    of duties principles.
                                    7.a(6). Identifies devices that are attached to the network and distinguishes
                                    these devices from users.
                                    7.a(7). Ensures that accounts are terminated or deactivated once access is no
                                    longer required.
                                     7.a(8). Identifies and controls use of shared accounts.
                                7.b. The Agency has established and is maintaining an identity and access
                            x   management program that identifies users and network devices. However, the
                                Agency needs to make significant improvements as noted below.
If 7.b. is checked above,            7.b(1). Account management policy is not fully developed (NIST 800-53:
check areas that need                AC-1).
significant improvement:             7.b(2). Account management procedures are not fully developed and
                                     sufficiently detailed (NIST 800-53: AC-1).
                            x        7.b(3). Account management procedures are not consistently implemented in
                                     accordance with government policies (NIST 800-53: AC-2).
                                     7.b(4). Agency cannot identify all User and Non-User Accounts
                                     (NIST 800-53, AC-2).
                                     7.b(5). Accounts are not properly issued to new users (NIST 800-53, AC-2).

                            x       7.b(6). Accounts are not properly terminated when users no longer require
                                    access (NIST 800-53, AC-2).
                                    7.b(7). Agency does not use multi-factor authentication where required
                                    (NIST 800-53, IA-2).
                                    7.b(8). Agency has not adequately planned for implementation of personal
                                    identity verification for logical access in accordance with government policies
                                    (Homeland Security Presidential Directive 12, FIPS 201, OMB M-05-24,
                                    OMB M-07-06, OMB M-08-01, OMB M-11-11).


                                                                                                             Page 12
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011



                             x         7.b(9). Privileges granted are excessive or result in capability to perform
                                       conflicting functions (NIST 800-53, AC-2, AC-6).
                                       7.b(10). Agency does not use dual accounts for administrators (NIST 800-53,
                                       AC-5, AC-6).
                                       7.b(11). Network devices are not properly authenticated (NIST 800-53, IA-3).
                                       7.b(12). The process for requesting or approving membership in shared
                                       privileged accounts is not adequate in accordance to government policies.
                                       7.b(13). Use of shared privileged accounts is not necessary or justified.
                                       7.b(14). When shared accounts are used, the Agency does not renew shared
                                       account credentials when a member leaves the group.
                                       7.b(15). Other

                                       7.b(15ex). Explanation for Other

                                  7.c. The Agency has not established an identity and access management program.
Comments: In March 2011, the GAO reported7 that the IRS had newly identified and unresolved weaknesses
related to access controls, configuration management, and segregation of duties that continue to jeopardize the
confidentiality, integrity, and availability of the financial and sensitive taxpayer information processed by IRS’s
systems. Considered collectively, these weaknesses were the basis for GAO’s determination that the IRS had a
material weakness in internal control over its financial reporting related to information security in Fiscal Year 2010.
In May 2011, the TIGTA reported8 access controls had not been implemented or were not operating effectively on
an IRS bankruptcy case tracking system, on which many IRS employees had excessive privileges. In addition, the
TIGTA reported that user accounts on the bankruptcy case tracking system were not properly terminated when users
no longer required access. Our review of the 10 IRS systems selected for the Fiscal Year 2011 FISMA evaluation
found that all systems needed improvement in implementing NIST baseline access controls and identity and
authentication controls.




7
  INFORMATION SECURITY: IRS Needs to Enhance Internal Control over Financial Reporting and Taxpayer
Data (GAO-11-308, dated March 2011).
8
  Access Controls for the Automated Insolvency System Need Improvement (Reference Number 2011-20-046,
dated May 16, 2011).
                                                                                                              Page 13
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




8: Continuous Monitoring Management
Status of Continuous        x   8.a. The Agency has established an enterprise-wide continuous monitoring
Monitoring Program              program that assesses the security state of information systems that is consistent
[check one]                     with FISMA requirements, OMB policy, and applicable NIST guidelines.
                                Although improvement opportunities may have been identified by the OIG, the
                                program includes the following attributes:
                                    8.a(1). Documented policies and procedures for continuous monitoring.
                                    8.a(2). Documented strategy and plans for continuous monitoring.
                                    8.a(3). Ongoing assessments of security controls (system-specific, hybrid, and
                                    common) that have been performed based on the approved continuous
                                    monitoring plans.
                                     8.a(4). Provides authorizing officials and other key system officials with
                                     security status reports covering updates to security plans and security
                                     assessment reports, as well as POA&M additions and updates with the
                                     frequency defined in the strategy and/or plans.
                                8.b. The Agency has established an enterprise-wide continuous monitoring
                                program that assesses the security state of information systems. However, the
                                Agency needs to make significant improvements as noted below.
If 8.b. is checked above,            8.b(1). Continuous monitoring policy is not fully developed (NIST 800-53:
check areas that need                CA-7).
significant                          8.b(2). Continuous monitoring procedures are not fully developed
improvement:                         (NIST 800-53: CA-7).
                                     8.b(3). Continuous monitoring procedures are not consistently implemented
                                     (NIST 800-53: CA-7; 800-37 Rev 1, Appendix G).
                                     8.b(4). Strategy or plan has not been fully developed for enterprise-wide
                                     continuous monitoring (NIST 800-37 Rev 1, Appendix G).
                                     8.b(5). Ongoing assessments of security controls (system-specific, hybrid, and
                                     common) have not been performed (NIST 800-53, NIST 800-53A).
                                     8.b(6). The following were not provided to the authorizing official or other
                                     key system officials: security status reports covering continuous monitoring
                                     results, updates to security plans, security assessment reports, and POA&Ms
                                     (NIST 800-53, NIST 800-53A).
                                    8.b(7). Other
                                    8.b(7ex). Explanation for Other
                                8.c. The Agency has not established a continuous monitoring program.
Comments:




                                                                                                           Page 14
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




9: Contingency Planning
Status of Contingency           9.a. The Agency established and is maintaining an enterprise-wide business
                            x
Planning Program                continuity/disaster recovery program that is consistent with FISMA requirements,
[check one]                     OMB policy, and applicable NIST guidelines. Although improvement
                                opportunities may have been identified by the OIG, the program includes the
                                following attributes:
                                    9.a(1). Documented business continuity and disaster recovery policy
                                    providing the authority and guidance necessary to reduce the impact of a
                                    disruptive event or disaster.
                                    9.a(2). The agency has performed an overall business impact analysis.
                                    9.a(3). Development and documentation of division, component, and
                                    information technology infrastructure recovery strategies, plans and
                                    procedures.
                                    9.a(4). Testing of system specific contingency plans.
                                    9.a(5). The documented business continuity and disaster recovery plans are in
                                    place and can be implemented when necessary.
                                    9.a(6). Development of test, training, and exercise programs.
                                     9.a(7). Performance of regular ongoing testing or exercising of business
                                     continuity/disaster recovery plans to determine effectiveness and to maintain
                                     current plans.
                                9.b. The Agency has established and is maintaining an enterprise-wide business
                                continuity/disaster recovery program. However, the Agency needs to make
                                significant improvements as noted below.
If 9.b. is checked above,            9.b(1). Contingency planning policy is not fully developed contingency
check areas that need                planning policy is not consistently implemented (NIST 800-53: CP-1).
significant improvement:             9.b(2). Contingency planning procedures are not fully developed
                                     (NIST 800-53: CP-1).
                                     9.b(3). Contingency planning procedures are not consistently implemented
                                     (NIST 800-53; 800-34).
                                     9.b(4). An overall business impact assessment has not been performed
                                     (NIST SP 800-34).
                                     9.b(5). Development of organization, component, or infrastructure recovery
                                     strategies and plans has not been accomplished (NIST SP 800-34).
                                     9.b(6). A business continuity/disaster recovery plan has not been developed
                                     (Federal Continuity Directive 1 (FCD1), NIST SP 800-34).
                                     9.b(7). A business continuity/disaster recovery plan has been developed but
                                     not fully implemented (FCD1, NIST SP 800-34).
                                     9.b(8). System contingency plans missing or incomplete (FCD1, NIST
                                     SP 800-34, NIST SP 800-53).
                                     9.b(9). System contingency plans are not tested (FCD1, NIST SP 800-34,
                                     NIST SP 800-53).
                                     9.b(10). Test, training, and exercise programs have not been developed
                                     (FCD1, NIST SP 800-34, NIST 800-53).

                                                                                                           Page 15
                Treasury Inspector General for Tax
            Administration – Federal Information Security
            Management Act Report for Fiscal Year 2011


                9.b(11). Test, training, and exercise programs have been developed, but are
                not fully implemented (FCD1, NIST SP 800-34, NIST SP 800-53).
                9.b(12). After-action report did not address issues identified during
                contingency/disaster recovery exercises (FCD1, NIST SP 800-34).
                9.b(13). Systems do not have alternate processing sites (FCD1, NIST
                SP 800-34, NIST SP 800-53).
                9.b(14). Alternate processing sites are subject to the same risks as primary
                sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                9.b(15). Backups of information are not performed in a timely manner (FCD1,
                NIST SP 800-34, NIST SP 800-53).
                9.b(16). Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST
                SP 800-53).
                9.b(17). Backups are not properly secured and protected (FCD1, NIST
                SP 800-34, NIST SP 800-53).
                9.b(18). Contingency planning does not consider supply chain threats.

                9.b(19). Other

                9.b(19ex). Explanation for Other
            9.c. The Agency has not established a business continuity/disaster recovery
            program.
Comments:




                                                                                     Page 16
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011




10: Contractor Systems
Status of Agency             x   10.a. The Agency has established and maintains a program to oversee systems
Program to Oversee               operated on its behalf by contractors or other entities, including Agency systems
Contractor Systems               and services residing in the cloud external to the Agency. Although improvement
[check one]                      opportunities may have been identified by the OIG, the program includes the
                                 following attributes:
                                     10.a(1). Documented policies and procedures for information security
                                     oversight of systems operated on the Agency’s behalf by contractors or other
                                     entities, including Agency systems and services residing in public cloud.
                                     10.a(2). The Agency obtains sufficient assurance that security controls of such
                                     systems and services are effectively implemented and comply with Federal
                                     and agency guidelines.
                                     10.a(3). A complete inventory of systems operated on the Agency’s behalf by
                                     contractors or other entities, including Agency systems and services residing
                                     in public cloud.
                                     10.a(4). The inventory identifies interfaces between these systems and
                                     Agency-operated systems.
                                     10.a(5). The agency requires appropriate agreements (e.g., Memorandums of
                                     Understanding, Interconnection Security Agreements, contracts, etc.) for
                                     interfaces between these systems and those that it owns and operates.
                                     10.a(6). The inventory of contractor systems is updated at least annually.
                                     10.a(7). Systems that are owned or operated by contractors or entities,
                                     including Agency systems and services residing in public cloud, are compliant
                                     with FISMA requirements, OMB policy, and applicable NIST guidelines.
                                 10.b. The Agency has established and maintains a program to oversee systems
                                 operated on its behalf by contractors or other entities, including Agency systems
                                 and services residing in public cloud. However, the Agency needs to make
                                 significant improvements as noted below.
If 10.b. is checked above,           10.b(1). Policies to oversee systems operated on the Agency’s behalf by
check areas that need                contractors or other entities, including Agency systems and services residing
significant improvement:             in public cloud, are not fully developed.
                                     10.b(2). Procedures to oversee systems operated on the Agency’s behalf by
                                     contractors or other entities, including Agency systems and services residing
                                     in public cloud, are not fully developed.
                                     10.b(3). Procedures to oversee systems operated on the Agency’s behalf by
                                     contractors or other entities, including Agency systems and services residing
                                     in public cloud are not consistently implemented.
                                     10.b(4). The inventory of systems owned or operated by contractors or other
                                     entities, including Agency systems and services residing in public cloud, is
                                     not complete in accordance with government policies (NIST 800-53: PM-5).
                                     10.b(5). The inventory does not identify interfaces between
                                     contractor/entity-operated systems to Agency owned and operated systems.


                                                                                                           Page 17
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011


                                     10.b(6). The inventory of contractor/entity-operated systems, including
                                     interfaces, is not updated at least annually.
                                     10.b(7). Systems owned or operated by contractors and entities are not subject
                                     to NIST and OMB’s FISMA requirements (e.g., security requirements).
                                     10.b(8). Systems owned or operated by contractors and entities do not meet
                                     NIST and OMB’s FISMA requirements (e.g., security requirements).
                                     10.b(9). Interface agreements (e.g., Memorandums of Understanding) are not
                                     properly documented, authorized, or maintained.
                                     10.b(10). Other

                                     10.b(10ex). Explanation for Other:
                                 10.c. The Agency does not have a program to oversee systems operated on its
                                 behalf by contractors or other entities, including Agency systems and services
                                 residing in public cloud.
Comments:


11: Security Capital Planning
Status of Agency                 11.a. The Agency has established and maintains a security capital planning and
Program to Oversee
                             x   investment program for information security. Although improvement
Security Capital Planning        opportunities may have been identified by the OIG, the program includes the
[check one]                      following attributes:
                                     11.a(1). Documented policies and procedures to address information security
                                     in the capital planning and investment control process.
                                     11.a(2). Includes information security requirements as part of the capital
                                     planning and investment process.
                                     11.a(3). Establishes a discrete line item for information security in
                                     organizational programming and documentation.
                                     11.a(4). Employs a business case/Exhibit 300/Exhibit 53 to record the
                                     information security resources required.
                                     11.a(5). Ensures that information security resources are available for
                                     expenditure as planned.
                                 11.b. The Agency has established and maintains a capital planning and investment
                                 program. However, the Agency needs to make significant improvements as noted
                                 below.
If 11.b. is checked above,           11.b(1). Capital planning and investment control information security policy
check areas that need                is not fully developed.
significant improvement:             11.b(2). Capital planning and investment control information security
                                     procedures are not fully developed.
                                     11.b(3). Capital planning and investment control information security
                                     procedures are not consistently implemented.
                                     11.b(4). The Agency does not adequately plan for information technology
                                     security during the capital planning and investment control process
                                     (SP 800-65).


                                                                                                             Page 18
                Treasury Inspector General for Tax
            Administration – Federal Information Security
            Management Act Report for Fiscal Year 2011


                11.b(5). The Agency does not include a separate line for information security
                in appropriate documentation (NIST 800-53: SA-2).
                11.b(6). Exhibits 300/53 or business cases do not adequately address or
                identify information security costs (NIST 800-53: PM-3).
                11.b(7). The Agency does not provide information technology security
                funding to maintain the security levels identified.
                11.b(8). Other

                11.b(8ex). Explanation for Other
            11.c. The Agency does not have a capital planning and investment program.
Comments:




                                                                                    Page 19
                          Treasury Inspector General for Tax
                      Administration – Federal Information Security
                      Management Act Report for Fiscal Year 2011



                                                                            Appendix I

Treasury Inspector General for Tax Administration
 Information Technology Security Reports Issued
   During the Fiscal Year 2011 Evaluation Period

1. The Internal Revenue Service Is Improving Management Controls for Information
   Technology Strategic Planning and Capital Investments (Reference
   Number 2010-20-064, dated July 9, 2010).
2. Additional Actions and Resources Are Needed to Resolve the Audit Trail Portion of the
   Computer Security Material Weakness (Reference Number 2010-20-082, dated
   July 28, 2010).
3. More Actions Are Needed to Correct the Security Roles and Responsibilities Portion of
   the Computer Security Material Weakness (Reference Number 2010-20-084, dated
   August 26, 2010).
4. The Federal Student Aid Datashare Application Was Successfully Deployed, but
   Improvements in Systems Development Disciplines Are Needed (Reference
   Number 2010-20-099, dated September 3, 2010).
5. Treasury Inspector General for Tax Administration Federal Information Security
   Management Act (Non-Intelligence National Security Systems) Report for Fiscal Year
   2010 (Reference Number 2010-20-101, dated September 9, 2010).
6. Annual Assessment of the Business Systems Modernization Program (Reference
   Number 2010-20-094, dated September 23, 2010).
7. Treasury Inspector General for Tax Administration – Federal Information Security
   Management Act Report for Fiscal Year 2010 (Reference Number 2011-20-003, dated
   November 10, 2010).
8. Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer Account
   Administration (Reference Number 2011-20-001, dated November 24, 2010).
9. The Sustaining Infrastructure Program Is Significantly Improved and a Comprehensive
   Information Technology Infrastructure Strategy Has Been Developed (Reference
   Number 2011-20-006, dated December 30, 2010).
10. Additional Security Is Needed for the Taxpayer Secure Email Program (Reference
    Number 2011-20-012, dated February 4, 2011).

                                                                                   Page 20
                          Treasury Inspector General for Tax
                      Administration – Federal Information Security
                      Management Act Report for Fiscal Year 2011



11. The Applications Development Function’s Quality Assurance Program Office Can Make
    Its Processes More Effective (Reference Number 2011-20-007, dated February 17, 2011).
12. Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are Protected
    (Reference Number 2011-20-044, dated May 4, 2011).
13. Access Controls for the Automated Insolvency System Need Improvement (Reference
    Number 2011-20-046, dated May 16, 2011).
14. Corrective Actions to Address the Disaster Recovery Material Weakness Are Being
    Completed (Reference Number 2011-20-060, dated June 27, 2011).




                                                                                 Page 21
                              Treasury Inspector General for Tax
                          Administration – Federal Information Security
                          Management Act Report for Fiscal Year 2011



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Louis Lee, Lead Auditor
Charles Ekunwe, Senior Auditor
Bret Hunter, Senior Auditor
Esther Wilson, Senior Auditor
Victor Taylor, Auditor




                                                                                     Page 22
                           Treasury Inspector General for Tax
                       Administration – Federal Information Security
                       Management Act Report for Fiscal Year 2011



                                                                 Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                       Page 23
